No. 20-58

In the Supreme Court of the United States
ANITA SMITH,
Petitioner,
v.

VESTAVIA HILLS BOARD OF EDUCATION,
Respondent.
CERTIFICATE OF SERVICE

I, Mark S. Boardman, counsel for the Respondent, Vestavia Hills Board of
Education, hereby certify that on this 23rd day of September, 2020, I served a copy of
the foregoing Brief in Opposition to Petition for a Writ of Certiorari by first-class mail
on the following:
Charles E. Guerrier
Alicia K. Haynes
Kenneth D. Haynes
Haynes & Hanes, P.C.
1600 Woodmere Drive
Birmingham, AL 35226
/s/ Mark S. Boardman
Mark S. Boardman
Counsel of Record
Katherine H. Watkins
BOARDMAN , CARR , PETELOS,
WATKINS & OGLE , P.C.
400 Boardman Drive
Chelsea, AL 35043
(205) 678-8000
mboardman@boardmancarr.com
khortberg@boardmancarr.com
Counsel for Respondent

